Judd E. Stone II
Solicitor General

(512) 936-1700
Judd.Stone@oag.texas.gov

September 24, 2021
Via E-File
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Deb Haaland, et al. v. Chad Everet Brackeen, et al., No. 21-376
Cherokee Nation, et al. v. Chad Everet Brackeen, et al., No. 21-377
Chad Everet Brackeen, et al. v. Deb Haaland, et al., No. 21-380
Dear Mr. Harris:
In accordance with Supreme Court Rule 30.4, Respondent the State of Texas,
respectfully moves for an extension of the time for ﬁling its responses to the petitions
for a writ of certiorari in the above-referenced matters.
The underlying proceedings have generated four petitions for certiorari in this
case, all filed on September 3 and all with briefs in opposition due on October 8.
Respondent requests a 30-day extension of that deadline, creating a new filing date
of November 8, 2021.* Petitioners in two cases (nos. 21-377 and 21-380) do not
oppose the extension, and Respondent has not heard back from the federal
petitioners (no. 21-376).
The extension is necessary due to the numerous brieﬁng and argument
obligations of undersigned counsel and other counsel assisting with this matter,
including:
*

Thirty-days would place the deadline on November 7, which is a Sunday; thus, the operative
deadline would be Monday, November 8.
P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Scott S. Harris
September 24, 2021
Page 2
• Wardrip v. Lumpkin, No. 21-5226, in the Supreme Court of the United States
(brief in opposition due October 27);
• Luna v. Lumpkin, No. 21-5460, in the Supreme Court of the United States
(brief in opposition due October 24);
• Oklahoma v. Castro-Huerta, No. 21-429, in the Supreme Court of the United
States (amicus brief due October 21);
• Ramirez v. Collier, No. 21-5592, in the Supreme Court of the United States
(respondent’s brief on the merits due October 15; argument on November 1);
• Whole Woman’s Health v. Jackson, No. 21-50792, in the Fifth Circuit
(appellants’ brief due October 13);
• Whole Woman’s Health Alliance v. Rokita, Nos. 21-2480 & 21-2573, in the
Seventh Circuit (amicus brief due October 7);
• Office of the Attorney General v. Brickman, No. 03-21-00161-CV, in the Third
Court of Appeals in Texas (argument on September 22).
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for ﬁling its responses to the petitions for a writ of certiorari, creating a new
deadline of November 8, 2021.
Sincerely,
/s/ Judd E. Stone II
JUDD E. STONE II
Solicitor General
Counsel of Record

cc:

Brian H. Fletcher (via e-mail)
Ian Heath Gershengorn (via e-mail)
Matthew D. McGill (via e-mail)

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

